Audit Report




OIG-06-036
MANUFACTURING OPERATIONS: The Mint Needs to Determine
Whether Its Long-Delayed A-76 Competition for Coin Blank
Production Should Be Continued
August 28, 2006




Office of
Inspector General
Department of the Treasury
Contents


Audit Report.................................................................................................. 3

    Results in Brief...............................................................................................4

    Background ................................................................................................. 7

    Finding and Recommendation ........................................................................ 9

        The Mint Did Not Properly Plan and Has Not Properly
        Implemented Its BAU Standard Competition ................................................ 9
        Recommendation .................................................................................... 27

Appendices

    Appendix     1:      Objectives, Scope, and Methodology ......................................              30
    Appendix     2:      Specific Agency A-76 Requirements .......................................              31
    Appendix     3:      Management Response .........................................................          34
    Appendix     4:      Major Contributors to This Report ...........................................          38
    Appendix     5:      Report Distribution ...............................................................    39

Abbreviations

        ASM/CFO              Assist Secretary for Management/Chief Financial Officer
        ATO                  Agency tender official
        BAU                  Blanking, annealing, and upsetting
        Circular A-76        OMB Circular No A-76 (Revised)
        CO                   Contracting officer
        CSO                  Competitive sourcing official
        FAR                  Federal Acquisition Regulation
        GFE                  Government-furnished equipment
        GFP                  Government-furnished property
        H.Rep.               House Report
        Mint                 United States Mint
        MEO                  Most Efficient Organization
        OCS                  Office of Competitive Sourcing
        OMB                  Office of Management and Budget
        P.L.                 Public Law
        PWS                  Performance work statement

                         MANUFACTURING OPERATIONS: The Mint Needs to Determine                               Page 1
                         Whether Its Long-Delayed A-76 Competition for Coin Blank
                         Production Should Be Continued (OIG-06-036)
QASP          Quality assurance surveillance plan
Treasury      Department of the Treasury




           MANUFACTURING OPERATIONS: The Mint Needs to Determine      Page 2
           Whether Its Long-Delayed A-76 Competition for Coin Blank
           Production Should Be Continued (OIG-06-036)
                                                                                        Audit
OIG
The Department of the Treasury
                                                                                        Report
Office of Inspector General




                       August 28, 2006

                       David A. Lebryk
                       Acting Director
                       United States Mint

                       Office of Management and Budget (OMB) Circular No. A-76
                       (Revised), Performance of Commercial Activities (Circular A-76)
                       was last revised on May 29, 2003, and reiterates the longstanding
                       policy of the federal government to rely on the private sector for
                       needed commercial services. In general, Circular A-76 requires that
                       federal agencies identify activities performed by government
                       personnel as either commercial or inherently governmental.1 As
                       appropriate, agencies are then to use a competition to determine
                       whether government personnel should perform a commercial
                       activity.

                       On October 23, 2003, the United States Mint (Mint) issued Public
                       Announcement of OMB Circular A-76 Standard Competition Study
                       on United States Mint Preparation of Ready-to-Coin Planchets,
                       which involved the manufacturing processes of blanking, annealing,
                       and upsetting (BAU) of coin blanks. Under Circular A-76, a
                       standard competition is to be completed and a “performance
                       decision” made within 12 months. As a result, the BAU standard
                       competition performance decision—whether to contract out these
                       manufacturing processes to the private sector or to continue to
                       have Mint personnel perform them—was due by October 23, 2004.

                       In November 2003, House Conference Report (H. Rep. 108-401)
                       for the Consolidated Appropriations Act, Fiscal Year 2004 [Public
                       Law (P.L.) 108-199], directed our office to perform a study on the
                       potential and cost-effectiveness of expanded use of coin blanks in
                       the production of circulating coins. We were to report on our study

1
  A commercial activity is a recurring service that could be performed by the private sector, while an
inherently governmental activity is so intimately related to the public interest as to mandate
performance by government personnel.

                       MANUFACTURING OPERATIONS: The Mint Needs to Determine                       Page 3
                       Whether Its Long-Delayed A-76 Competition for Coin Blank
                       Production Should Be Continued (OIG-06-036)
                       to the House and Senate Committees on Appropriations by
                       April 1, 2004. In letters dated March 23, 2004, we informed
                       Congress that since the Mint had already publicly announced the
                       BAU standard competition, our study as described in the
                       Conference Report could not be performed because a Circular A-76
                       standard competition had already begun. On October 29, 2004, we
                       issued an interim audit report, OIG-05-002, MANUFACTURING
                       OPERATIONS: Mint’s Standard A-76 Competition Study for the
                       Preparation of Ready-to-Coin Planchets Is Delayed and Requires
                       Significant Actions to Complete.

                       In the interim audit report, we stated that the Mint had not met
                       certain critical intermediate milestones it had established for the
                       BAU standard competition and had not completed it by
                       October 23, 2004, the due date. Nearly 3 years after the Mint
                       announced the BAU standard competition; it continues to
                       experience problems. We are issuing this report to provide Mint
                       management, the Department of the Treasury (Treasury)
                       competitive sourcing official (CSO),2 and Congress with the current
                       status of the BAU standard competition, our audit results, and our
                       overall recommendation that the BAU standard competition be
                       revisited because of deficiencies in the Mint’s implementation of
                       the standard competition.

                       The findings in this report are based on the interim audit report and
                       additional work we performed from November 2004 to March
                       2006 at the Treasury and Mint headquarters in Washington, D.C.
                       Appendix 1 provides a more detailed description of our audit
                       objectives, scope, and methodology.

Results in Brief
                       We found that the Mint did not adequately plan for or implement
                       the BAU standard competition. Therefore, we believe that the Mint
                       should complete a formal business case analysis to determine
                       whether the activity should still be competed. Our conclusion is
                       based not only on the fact that the Mint did not adequately plan

2
  A CSO is an inherently governmental agency official responsible for implementing the Circular within
an agency. The Treasury CSO is the Assistant Secretary for Management and Chief Financial Officer
(ASM/CFO).

                       MANUFACTURING OPERATIONS: The Mint Needs to Determine                      Page 4
                       Whether Its Long-Delayed A-76 Competition for Coin Blank
                       Production Should Be Continued (OIG-06-036)
                       the standard competition, but also that it failed to meet Circular
                       A-76’s requirement that standard competitions be completed
                       within 1 year of initiation and because it has not complied with
                       several other Circular A-76 requirements. Deficiencies in the Mint’s
                       planning and implementation of the BAU standard competition
                       include the following:

                           •   Hiring a contractor to develop the Performance Work
                               Statement (PWS), but changing it
                           •   Publishing a PWS with errors in the specifications for coin
                               blanks
                           •   Not addressing the government-furnished property (GFP)3
                               approval issue; specifically, the use of potential excess
                               space, as required by Circular A-76
                           •   Not addressing security issues in the draft PWS or draft
                               solicitations
                           •   Issuing a draft Mint directive for conducting A-76
                               competitions but not following its guidelines
                           •   Obtaining a deviation from OMB from certain A-76
                               requirements after the allowed time period
                           •   Not obtaining an authorization on the performance bond,4 as
                               required by Circular A-76

                       In addition to these planning and implementation issues, the Mint
                       faces other issues and obstacles to a successful completion of the
                       BAU study, including the following:

                           •   Concerns related to the timing of the transfer of government-
                               furnished equipment (GFE) to new vendors
                           •   More than 300 questions, concerns, and comments received
                               from potential vendors in response to the September 2005
                               draft solicitation
                           •   Questions raised by the Agency Tender Official (ATO),5 who
                               is responsible for the tender and represents the agency
                               tender during source selection


3
  GFP consists of facilities, equipment, material, supplies, or other services provided by the government
for use by all prospective providers in the solicitation.
4
  A performance bond is issued by an insurance company to guarantee satisfactory completion of a
project by a contractor.
5
  The ATO for the BAU study is the Denver Mint plant manager.

                       MANUFACTURING OPERATIONS: The Mint Needs to Determine                       Page 5
                       Whether Its Long-Delayed A-76 Competition for Coin Blank
                       Production Should Be Continued (OIG-06-036)
We recommend that the Mint should expeditiously complete a
formal business case analysis to determine whether to continue the
standard competition. If, on the basis of the business case
analysis, the Mint decides to discontinue the standard competition,
the Mint should work with the Department to cancel the BAU
standard competition.

In the Mint’s August 14, 2006, written response to this report,
management acknowledged that better preliminary planning efforts
would have led to a more expeditious completion of its complex
A-76 public-private competition on BAU coin planchets. The Mint
stated that planning prior to competition announcement could have
been more extensive; however, it was responding to an inquiry by
a Congressional committee regarding the feasibility of purchasing
ready-made blanks, and was attempting to be responsive to the
President's Management Agenda goal of opening additional
commercial activities to public-private competition. The Mint
further stated that it did not conduct a formal business case
analysis to determine the advantages and disadvantages of
conducting a competition, and the optimal method for performing
the competition; however, it did conduct examinations, reviews,
and inquiries of the BAU activity prior to competition
announcement. These other items led the Mint’s senior
management to a consensus that approximately 30 percent savings
could be obtained by performing a competition; therefore, the Mint
proceeded to implement a standard competition.

The Mint concurred with our recommendation and will develop a
business case analysis to determine if the best course of action is
to proceed with the BAU competition or take alternative action to
ensure the Mint makes or purchases planchets as efficiently and
cost-effectively as possible. However, management did not agree
with some of our findings. We provide additional comments to their
disagreements at the end of each section of the report where the
Mint provided comments.

In conclusion, we agree with the Mint’s statement that it lacked
experience with OMB Circular A-76 competitions and better
preliminary planning could have led to a more expeditious
competition. These comments support our conclusion that the Mint

MANUFACTURING OPERATIONS: The Mint Needs to Determine         Page 6
Whether Its Long-Delayed A-76 Competition for Coin Blank
Production Should Be Continued (OIG-06-036)
                       did not properly plan and implement its BAU standard competition.
                       The full text of the Mint’s response is provided as Appendix 3.

Background
                       On October 23, 2003, the Mint issued a public announcement of a
                       Circular A-76 standard competition on the Mint’s preparation of
                       ready-to-coin planchets, which involved the manufacturing
                       processes of BAU of coin blanks. Blanks are round disks from
                       which coins are manufactured. For all coins except the penny (for
                       which the Mint purchases ready-made blanks), the Mint buys coiled
                       strips of metal about 13 inches wide and 1,500 feet long. Each coil
                       is fed through a blanking press, which punches out blanks for
                       coins. The blanks are heated in an annealing furnace to soften
                       them. After the blanks are washed and dried, they go through an
                       upsetting mill, which creates a raised rim along their edges. The
                       blanks then go to a coining press, where they are stamped with
                       appropriate designs and inscriptions. Coin blanks are also known as
                       planchets.

                       Circular A-76 establishes federal policy for the competition of
                       commercial activities. It assigns responsibilities to specific
                       government personnel and identifies additional requirements, such
                       as those in the Federal Acquisition Regulation (FAR),6 that are
                       applicable to competitions conducted under Circular A-76. Agency-
                       specific acquisition regulations are to be limited to those necessary
                       to implement FAR policies and procedures within the agency and
                       additional policies, procedures, solicitation provisions, or contract
                       clauses that supplement the FAR to satisfy the specific needs of
                       the agency.7 Some of Circular A-76’s specific requirements for
                       agencies are detailed in appendix 2.



6
  The FAR was established to codify uniform policies for acquisition of supplies and services by federal
executive agencies. It is issued and maintained jointly by the Secretary of Defense, the Administrator of
the General Services Administration, and the Administrator of the National Aeronautics and Space
Administration.
7
  Under its Public Enterprise Fund authority (P.L. 104-52), the Mint is exempt from the provisions of law
governing procurement or public contracts (i.e., the FAR) for the procurement of goods or services
necessary for carrying out Mint programs and operations. For A-76 competition studies the Mint must
comply with the Circular A-76 including applicable provisions in the FAR.

                       MANUFACTURING OPERATIONS: The Mint Needs to Determine                       Page 7
                       Whether Its Long-Delayed A-76 Competition for Coin Blank
                       Production Should Be Continued (OIG-06-036)
The Mint’s Draft Directive MD 2A-2, Performance of Commercial
Activities, dated in October 2003, established policy and assigned
responsibility for implementing Circular A-76 at the Mint. The
Policy Section of MD 2A-2 contains specific requirements
applicable to the Mint’s implementation of Circular A-76.

The FAR requires that agencies conduct market research. The
results of this research are to be used to determine whether
suitable sources exist and commercial items are available that
(1) meet the agency’s needs, (2) could be modified to meet the
agency’s needs, or (3) could meet the agency’s requirements if
they were modified to a reasonable extent. We believe a business
case analysis would include market research.

Each government solicitation contains specifications that describe
the contract work. Clear and unambiguous specifications are an
essential of the procurement process because vague or otherwise
incomplete specifications will not adequately describe the agency’s
needs and may result in an unacceptable product or service.
Ambiguous specifications also restrict competition and invite
performance problems. The term “defective specifications” usually
refers to a defect or inconsistency in the specifications so severe
that performance of the contract as stated cannot be attained by
any contractor or can be obtained only at an exorbitant cost.
Actual impossibility exists when the contract cannot be performed
according to its terms by the contractor or by any other contractor
because (1) the contract’s specifications are erroneous; (2) the
contract’s performance requirements can, in no event, be met; or
(3) the contractor would be obligated to go beyond the state of the
art to attain the requirement.

On April 20, 2005, the Mint requested a deviation from certain
Circular A-76 requirements to restart the standard competition, and
OMB approved the deviation on July 14, 2005. The Mint
re-announced the standard competition on September 16, 2005,
but did not change its timetable for completing the standard
competition.




MANUFACTURING OPERATIONS: The Mint Needs to Determine         Page 8
Whether Its Long-Delayed A-76 Competition for Coin Blank
Production Should Be Continued (OIG-06-036)
                      The Mint was required to report its fiscal years 2004 and 2005
                      competitive sourcing costs. The current OMB guidance8 identifies
                      10 types of information; however, only 2 types of costs – the fixed
                      costs of management overhead and the incremental costs directly
                      attributable to conducting a study – are required. The Mint reported
                      spending approximately $1.3 million for fiscal years 2004 and
                      2005 on fixed overhead management and the BAU study. The Mint
                      reported just over $0.8 million in fixed overhead management costs
                      and nearly $0.5 million in the BAU study.9


Finding and Recommendation

                      The Mint Did Not Properly Plan and Has Not Properly
                      Implemented Its BAU Standard Competition

                      We concluded that the Mint did not properly plan and has not
                      properly implemented its BAU standard competition. Initially, the
                      Mint intended to conduct a study, or a formal business case
                      analysis, to determine whether coin blanks should be subject to an
                      A-76 standard competition. However, the Mint subsequently
                      decided not to do a study, but to immediately initiate a standard
                      Circular A-76 competition. According to the Mint, this decision was
                      driven largely by Congress’s desire to determine whether it would
                      be less expensive for the Mint to buy coin blanks than to continue
                      to make them in-house. As a result of not performing a formal
                      business case analysis study, the Mint did not address a number of
                      issues vital to successful implementation and timely completion of
                      the standard competition. As of the date of this report, nearly 3
                      years after the Mint initiated the standard competition; a
                      performance decision is still pending. Currently, the Mint plans to
                      complete the standard competition before the end of 2006, or over

8
  The Consolidated Appropriations Act, Fiscal Year 2004 P.L. 108-199, established a government-wide
requirement for each executive agency to report to Congress on its competitive sourcing efforts. OMB
Memoranda provided specific reporting requirements for FY 2004 in M-05-01, which was issued on
October 15, 2004 and for FY 2005 in M-06-01, which was issued on October 7, 2005.
9
  Some of the BAU contractor costs are estimates because the Mint arbitrarily split some contractors’
costs between the BAU standard competition and another concurrent standard competition entitled
Power Industrial Truck. The contractors performed under one contract similar tasks for each standard
competition and several of the tasks were performed simultaneously; therefore, we were unable to
determine a more accurate distribution of the costs between the two standard competitions.

                      MANUFACTURING OPERATIONS: The Mint Needs to Determine                     Page 9
                      Whether Its Long-Delayed A-76 Competition for Coin Blank
                      Production Should Be Continued (OIG-06-036)
                      3 years after it was initiated. We do not believe the Mint will be
                      able to complete the BAU competition by that date.

                      The Mint reported already spending nearly $0.5 million in
                      contractual work, training, travel, and employees to compete this
                      standard competition. Currently, a final PWS is not posted and the
                      Mint does not have an estimated completion date for the PWS so
                      that bids can be received. We have little confidence that the Mint
                      will be successful in the effort.

                      The issues that caused delays and the issues that still need to be
                      addressed are discussed in the sections that follow.

                         The Contractor-Developed PWS
                         Was Not Used for the Solicitation

                      A PWS is a statement in the solicitation that identifies the
                      technical, functional, and performance characteristics of an
                      agency’s requirements. It should be performance-based and specify
                      essential outcomes to be achieved; the agency’s required
                      performance standards; and the location, units, quality, and
                      timeliness of the work.

                      Circular A-76 allows agencies to provide advisers and consultants
                      in addition to government employees to assist the PWS and Most
                      Efficient Organization (MEO)10 teams in performing their
                      responsibilities. PWS team members may not be members of the
                      MEO team and MEO team members may not be members of the
                      PWS team. The Mint provided support to the teams by hiring one
                      contractor to assist the PWS team and another contractor to assist
                      the MEO team.

                      Circular A-76 requires that the PWS team comply with the FAR and
                      Circular A-76 and assist the PWS team leader with (1) developing
                      the PWS, (2) determining GFP, (3) assisting the contracting
                      officer’s (CO) development of the solicitation, (4) developing the




10
 An MEO team prepares the staffing plan of the agency tender, developed to represent the agency’s
most efficient and cost-effective organization for performing an activity.

                      MANUFACTURING OPERATIONS: The Mint Needs to Determine                 Page 10
                      Whether Its Long-Delayed A-76 Competition for Coin Blank
                      Production Should Be Continued (OIG-06-036)
                       quality assurance surveillance plan (QASP),11 and (5) implementing
                       the performance decision. One of the requirements placed on the
                       PWS contractor was to develop the PWS and related QASP for the
                       BAU function.

                       The contractor that the Mint hired to assist with PWS team
                       responsibilities indicated that it had more than 25 years of
                       experience in consulting on Circular A-76 commercial activities
                       studies, with emphasis on studies of manufacturing activities. This
                       contractor developed a draft PWS that we believe contained the
                       required attributes for the PWS. The Mint substantially revised the
                       contractor’s draft PWS. The resultant draft PWS no longer included
                       all required attributes and was internally inconsistent, most notably
                       with respect to the manufacturing specifications and acceptance
                       criteria for the coin blanks. The Mint-revised draft PWS was
                       published on the FedBizzOpps.gov website12 on April 12, 2004, for
                       comment and questions.

                       We reviewed the Mint’s draft PWS and advised the Mint in May
                       2004 that we had concerns about required information that
                       appeared to be missing from the draft or that was misleading. Our
                       concerns about the April 2004 draft PWS included the following:

                           •   The PWS identified “adequate” and ”satisfactory” as
                               performance standards. Such vague performance standards
                               did not provide an adequate level of specificity or measurable
                               requirements.
                           •   The PWS lacked a list of definitions and many acronyms
                               were undefined throughout the text of the document.
                           •   The PWS was clearly contradictory on certain points,
                               including what GFE would be offered to potential bidders and
                               the means of inspection and acceptance.

                       The Mint published another draft PWS on the FedBizOpps.gov
                       website on August 14, 2004, as part of its draft solicitation. This
                       second draft PWS still did not contain all the information or address

11
   A QASP is the government’s inspection plan. It documents methods used to measure the
performance of the service provider against PWS requirements.
12
   FedBizOpps.gov is the website where the government electronically advertises solicitations or
requirements.

                       MANUFACTURING OPERATIONS: The Mint Needs to Determine                       Page 11
                       Whether Its Long-Delayed A-76 Competition for Coin Blank
                       Production Should Be Continued (OIG-06-036)
the comments on the April 2004 draft that we provided to Mint
officials in May 2004.

   The Draft PWSs Contained Conflicting
   Specifications for Coin Blanks

Both the April 2004 draft PWS and the August 2004 draft PWS
included manufacturing specifications for coin blanks that
conflicted with inspection and acceptance specifications. In
addition, the August 2004 draft PWS contained conflicting
manufacturing specifications for coin blanks. If not corrected in the
final solicitation, these deficiencies could discourage potential
bidders because a significant number of coin blanks produced
would be subject to rejection by the Mint.

Specifically, we found that the April 2004 draft PWS contained
differences between the manufacturing specifications in Technical
Exhibit-02 and the inspection criteria for the coin blanks in
Technical Exhibit-08. In this regard, the draft PWS contained the
manufacturing specifications and inspection criteria for five coin
denominations—the nickel, dime, quarter, half-dollar, and dollar.
Our comparison of the Mint’s 20 manufacturing specifications with
its inspection criteria for these five denominations revealed that 7
of the 20 manufacturing specifications (35 percent) differed from
the inspection criteria. For two coin denominations (nickel and
quarter), no overlap existed between the manufacturing
specifications and inspection criteria in the April 2004 PWS, which
would effectively result in rejection of all coin blanks produced in
those denominations. For two other coin denominations (dime and
dollar), the discrepancies were not as significant but could still
result in rejection of some of the coin blanks produced according to
the manufacturing specifications. In a May 21, 2004,
memorandum, we provided comments on the observed deficiencies
from our review of the April 2004 draft PWS to the Mint
Contracting Officer’s Technical Representative and CO responsible
for the PWS.

Our review of the Mint’s August 2004 draft PWS revealed that
these previously noted deficiencies were not corrected, and found
additional deficiencies in the draft. Specifically, we found that 9 of
the 50 manufacturing specifications in the draft PWS, including the

MANUFACTURING OPERATIONS: The Mint Needs to Determine           Page 12
Whether Its Long-Delayed A-76 Competition for Coin Blank
Production Should Be Continued (OIG-06-036)
7 with discrepancies noted in the April 2004 draft PWS differed
from the inspection criteria.

Additionally, our comparison of the manufacturing specifications
for blanks with the fabrication specifications for strip materials –
strips are the coiled strips of metal from which blanks are made –
identified differences in 70 of 176 (40 percent) of the
specifications. As in the cases of the differences we found
between manufacturing and inspection criteria for blanks,
inconsistencies between manufacturing specifications for blanks
and fabrication specifications for strip materials could cause blanks
to be rejected. On October 29, 2004, we reported these
deficiencies in the draft PWSs in our interim audit report,
OIG-05-002, MANUFACTURING OPERATIONS: Mint’s Standard
A-76 Competition Study for the Preparation of Ready-to-Coin
Planchets Is Delayed and Requires Significant Actions to Complete.

As we noted in our interim report, the nature and extent of the
discrepancies that we found in the two draft PWSs indicate a lack
of appropriate quality control or supervisory review by the Mint of
the documents before their posting on FedBizOpps.gov for
comment and questions.

The Mint reissued a draft PWS on September 16, 2005, and
included certain technical exhibits for the blank production
specifications. Based on comments, questions, and concerns it
received, the Mint has made modifications to the PWS and posted
the results on FedBizOpps.gov. The Mint has not issued the
technical exhibit for the blank inspection criteria; therefore, we
were unable to compare the current blank production specifications
with the blank inspection criteria.

   The Mint Did Not Obtain the CSO’s Written
   Approval of Its GFP Justification or Prepare a
   Written Plan for Use of Potential Excess Space

Circular A-76 requires that an agency determination as to whether
GFP is to be offered potential bidders be justified in writing and
approved by the CSO (ASM/CFO). Circular A-76 defines GFP as
“facilities, equipment, material, suppliers, or other services
provided by the government for use by all prospective providers in

MANUFACTURING OPERATIONS: The Mint Needs to Determine          Page 13
Whether Its Long-Delayed A-76 Competition for Coin Blank
Production Should Be Continued (OIG-06-036)
the solicitation.” In addition to the Circular A-76’s requirement, the
Mint’s Draft Directive MD 2A-2 requires that the CSO provide this
written approval in advance of the official announcement of a
competitive study.

The April and August 2004 draft PWSs stated that the Mint did not
intend to furnish any facilities (space) to a nongovernmental service
provider. Both draft PWSs identified certain equipment, including
blanking presses, annealing furnaces, washers, dryers, and
upsetting mills, which the Mint planned to excess and make
available to potential bidders if they chose to bid on the excess
equipment.

We reported in October 2004 that the Mint had not prepared a
written justification in support of its GFP decisions and,
accordingly, had not obtained the CSO’s written approval of these
decisions. We recommended that the Mint prepare and obtain
written CSO approval of a memorandum justifying the Mint’s GFP
decisions. The Mint agreed with our recommendation and indicated
that it would provide the GFP justification to the CSO by
November 12, 2004. In response to our recommendation, on
November 8, 2004, the BAU PWS team leader issued a GFP
decision memorandum to the CSO.

The November 8, 2004, GFP memorandum did not address what
the Mint intended to do with the space in Mint facilities dedicated
to coin blank production if the A-76 standard competition resulted
in an award to a contractor. BAU equipment currently occupies
approximately one-third of the square footage of the Mint’s Denver
and Philadelphia facilities. Mint officials informed us that they
intend to use any excess space in the Denver and Philadelphia
facilities for storage to reduce off-site storage needs, but they have
not developed a written plan for converting these facilities to this –
or any other – use.

As noted above, the Mint expressed its intention in the November
2004 GFP memorandum to excess its current BAU equipment. This
intention differed from the GFP plans that the Mint had expressed
in the April and August 2004 draft PWSs. As discussed later in this
report, in April 2005 the Mint requested a deviation from Circular
A-76 to restart the standard competition, and OMB granted the

MANUFACTURING OPERATIONS: The Mint Needs to Determine           Page 14
Whether Its Long-Delayed A-76 Competition for Coin Blank
Production Should Be Continued (OIG-06-036)
request. As part of the deviation process, the Mint needed to
obtain the General Services Administration’s approval to excess its
BAU equipment rather than offer it as GFP to potential contractors.
The Mint did not receive the General Services Administration’s
necessary approval and now intends to allow potential contractors
to use its current BAU equipment as GFP to produce blanks.
However, the Mint has neither complied with Circular A-76’s
requirement for an approved GFP memorandum nor the Mint’s
Draft Directive MD 2A-2 requirement that the GFP memorandum be
approved before the official announcement of the competitive
study. Treasury’s Competitive Sourcing Manager told us that the
CSO plans to wait until later in the process to decide whether or
not to approve a GFP memorandum.

By providing a written GFP justification that did not address
disposition of excess space and failing to obtain the required CSO
written approval of the GFP memorandum it did provide, the Mint
has not taken adequate steps to help ensure that its GFP decisions
are in the best interest of the government. It also evidences the
poor planning by the Mint in undertaking the A-76 standard
competition.

   The Draft Solicitation Lacks Information
   on Security Requirements

The Mint Police provide security at all Mint facilities. Inherent in
this protection function is the security of coin blanks, which have
the same electro-magnetic signature as U.S. coins and may be
recognized by vending machines as the equivalent of U.S coins.
The Mint Police provide a single level of security for entire facilities;
therefore, blanks are protected at the same physical security level
as coins are.

The Mint did not identify any security requirements for protecting
coin blanks in the draft PWSs. According to Mint officials, security
requirements will be included in the PWS in the formal solicitation,
scheduled for release sometime in 2006. We believe that failure to
include security requirements in the draft PWSs further
demonstrates the Mint’s inadequate planning and implementation
of the competitive sourcing process.


MANUFACTURING OPERATIONS: The Mint Needs to Determine             Page 15
Whether Its Long-Delayed A-76 Competition for Coin Blank
Production Should Be Continued (OIG-06-036)
    The Mint Did Not Finalize or Comply with Its
    Draft Directive for Circular A-76 Competitions

The Mint showed a clear understanding of Circular A-76’s
requirements when it developed Draft Directive MD 2A-2,
“Performance of Commercial Activities,” dated October 2003,
which proposed policy for implementing Circular A-76. If the Mint
had effectively complied with all of the draft directive’s
requirements, it should not have overlooked or mishandled several
of Circular A-76’s requirements.

Among the provisions of the Policy Section of the draft directive,
are the following:

•   The Mint’s Office of Competitive Sourcing (OCS) will conduct
    study feasibility analyses to determine which activities would be
    the best candidates for competitive sourcing studies because of
    their potential for process improvements and cost savings.
•   Prior to the official announcement of a study, OCS will
    complete all preliminary planning activities as outlined in Circular
    A-76.

In addition, Section 7 of MD 2A-2 states, all policy statements
listed in Section (4) of this directive are considered critical
requirements for implementing the U.S. Mint’s competitive sourcing
program.

While the draft directive contained many of Circular A-76’s major
requirements, the Mint’s management has neither finalized
MD 2A-2 nor issued replacement guidelines for conducting and
preparing for Circular A-76 streamline and standard competition
processes in the nearly 3 years since the BAU standard competition
began.

Despite a clear understanding of necessary steps to take before the
announcement of a standard competition, as demonstrated in the
instructions in MD 2A-2, the Mint (1) did not conduct feasibility
analyses of the BAU activities, (2) did not complete all of the items
required to be completed before the formal announcement of the
standard competition, and (3) has not adequately managed the
standard competition.

MANUFACTURING OPERATIONS: The Mint Needs to Determine            Page 16
Whether Its Long-Delayed A-76 Competition for Coin Blank
Production Should Be Continued (OIG-06-036)
   The Mint Requested a Deviation from Certain Circular
   A-76 Requirements after the Allowed Time Period

On April 20, 2005, the Mint through the CSO proposed to OMB a
deviation from Circular A-76’s standard competition requirements.
Circular A-76 requires the CSO to request and obtain written
approval from OMB for any deviations from Circular A-76. If OMB
approves a deviation, the agency is required to include the
approved deviation in the public announcement and solicitation for
a standard competition. Treasury made the public announcement of
the BAU standard competition on October 23, 2003. Treasury did
not formally request a deviation from Circular A-76 until more than
18 months after the public announcement, which is contrary to the
requirement to include the approved deviation in the public
announcement.

The deviation would allow the Mint to solicit coin blanks as a
supply item from private providers, instead of soliciting the service
of converting strip into coin blanks. Among other things, this would
mean that private providers would supply the strips used to
produce blanks (purchasing them from private suppliers unless they
produced strips themselves) instead of performing BAU services on
Mint-supplied strips. The MEO proposal, however, would continue
to be for provision of BAU services on Mint-supplied strips. The
competition would therefore be transformed from a comparison of
the cost of services among public-sector and private-sector service
providers to a make-buy decision.

In the proposed deviation request, the Mint stated that it “will
establish a solicitation package with quality specifications, delivery
requirements, and forecasted demand. Each potential bidder will
submit a bid per denomination with the expectation that it will
receive a percentage between 60% - 40% of the business based
on price. The intent was that if the work was moved to the private
section, two geographically separate contractors would be awarded
contracts to provide the Mint with blanks. The agency tender will
be valued using actual calculated overhead costs.”

On July 14, 2005, OMB approved the deviation, with the following
requirements:


MANUFACTURING OPERATIONS: The Mint Needs to Determine          Page 17
Whether Its Long-Delayed A-76 Competition for Coin Blank
Production Should Be Continued (OIG-06-036)
•   The Mint was to deviate from the Circular only to the extent
    necessary to conduct a comparison between the agency tender
    and combined private-sector offers.
•   The Mint was to reannounce the competition in FedBizOpps.gov
    and describe the procedures to be followed pursuant to this
    deviation.
•   The Mint was to conduct vendor outreach and publish the draft
    statement of work on FedBizOpps.gov to give prospective
    private sector bidders and the incumbent in-house provider, the
    MEO, an opportunity to comment. In this regard, OMB directed
    the Mint to do the following:

    a. At a minimum, the Mint was to hold a pre-bidders
       conference. OMB also encouraged the Mint to host a
       website to allow for posting of questions and answers.
    b. The Mint was to specifically seek feedback on its intention
       to limit any one private-sector provider’s participation to no
       more than 60 percent of the government’s needs.
    c. The Mint was to advise OMB of the general feedback to its
       draft PWS, including any concerns raised by the private
       sector that might discourage their participation in the
       competition and steps taken to address the concerns. In this
       regard, the Mint was instructed to build sufficient time into
       its competition timeline to give meaningful consideration to
       any such concerns.

On September 16, 2005, the Mint issued a draft solicitation that
encompassed the changes it obtained through its deviation request
and that included the OMB requirements noted above.

The Mint completed its analysis of the questions and comments
received in response to the September 2005 draft solicitation and
posted the responses on November 10, 2005. Treasury has
advised OMB regarding the general feedback to the PWS in the
September 2005 draft solicitation and the results of visits made by
potential bidders to the Mint’s two production facilities.

The Mint, however, is continuing to revise its schedule for
completing the competition study and has not developed a written
plan for how it will compare and evaluate the bids per


MANUFACTURING OPERATIONS: The Mint Needs to Determine          Page 18
Whether Its Long-Delayed A-76 Competition for Coin Blank
Production Should Be Continued (OIG-06-036)
denomination from potential bidders with the MEO tender. We
believe that a written plan is essential to ensure a fair competition.

Management Response

The Mint agreed that it did not request its deviation in a timely
manner because of difficulties in defining performance elements
and in deciding the optimal way to treat government-furnished
property to meet the intent of comparing the cost of buying
planchets to the cost of producing planchets in-house. Once the
Mint resolved these issues, it requested and received approval from
OMB for a deviation. Since the deviation was not approved before
the initial competition was announced, the deviation was requested
and approved then the solicitation was re-issued, which the Mint
believes improved the solicitation. The deviation required the Mint
to issue a new public announcement and solicitation that included
the OMB-approved deviation; however, the Mint believes that
OMB’s approval of the deviation made the Mint’s non-compliance
with Circular A-76 moot.

OIG Comment

We agree with the Mint that it did not comply with the Circular
A-76 requirements regarding a deviation because of difficulties it
experienced in complying with all of the Circular A-76
requirements. We continue to believe that if the Mint had
adequately planned the BAU competition and timely complied with
the Circular A-76’s requirements, the Mint would likely not have
had to request a deviation; therefore, we believe this supports our
conclusion that the Mint did not perform adequate initial planning.

   The Mint Did Not Obtain the CSO’s Written Approval
   for Including a Performance Bond Requirement

Circular A-76 requires that the CO obtain prior written approval
from the CSO if an agency solicitation requires a private sector
source to acquire a performance bond. A performance bond
provides the government an element of protection from financial
loss from contractor nonperformance because an insurance
company issues the performance bond that guarantees a
contractor’s satisfactory completion of a project.

MANUFACTURING OPERATIONS: The Mint Needs to Determine           Page 19
Whether Its Long-Delayed A-76 Competition for Coin Blank
Production Should Be Continued (OIG-06-036)
The Mint’s reissued draft solicitation in September 2005 included a
requirement for a performance bond. Our review of this draft PWS
revealed that this was a new requirement not contained in previous
draft PWSs. As of the date of this report, the Mint has not received
written approval from the CSO for inclusion of a performance bond
requirement.

Management Response

The Mint stated that OMB Circular A-76, Appendix B, para.
D3a(10), states, “If an agency requires a private sector source to
include a performance bond, the CO shall obtain prior written
approval from the CSO” (emphasis added). The Mint believes that
this issue raised by this finding is not pertinent because the Mint
has not issued a solicitation that “requires a private sector source
to include a performance bond” requirement; indeed, the agency
has not yet issued any solicitation. The Mint stated further that it
wanted industry feedback on a possible Performance Bond
requirement before issuing a final solicitation; and believes it has
benefited from feedback received as a result of including this
requirement in the draft solicitation. The Mint stated that, if the
United States Mint determines that the work “requires a private
sector source to include a performance bond,” the agency will, of
course, obtain the CSO’s approval before issuing a solicitation that
includes such a requirement.

OIG Comment

We do not agree with the Mint’s response because to date the
Mint has only issued draft BAU documents and solicitations and in
its draft solicitation cover document the Mint stated that it
intended to issue a formal solicitation on October 24, 2005. This
cover document clearly stated that it was a draft solicitation
document, but did not state that the Mint only included the
performance bond requirement because it wanted industry
feedback. In our opinion, the Mint’s draft solicitation document
informed all private sources that it was likely the Mint’s intent to
require a performance bond; therefore, we believe the CSO’s prior
approval should have been obtained.


MANUFACTURING OPERATIONS: The Mint Needs to Determine          Page 20
Whether Its Long-Delayed A-76 Competition for Coin Blank
Production Should Be Continued (OIG-06-036)
   The Mint’s Estimate of Time Required to Move BAU Equipment
   to Supply Contractors’ Facilities May Not Be Sufficient

The Mint is offering its existing BAU equipment for use by all
potential bidders – in-house by the MEO team and outside by
supply contractors. The Mint currently has 11 separate BAU
production lines located at its production facilities, in Denver and
Philadelphia. Each line consists of the BAU equipment necessary
to convert the raw material called strip, which is supplied by strip
manufacturers, into individual coin blanks for each denomination of
coin.

The Mint’s draft September 16, 2005, solicitation provided that if
the work is awarded to the private section, the Mint would transfer
the BAU equipment to the successful bidders in 6 months. Mint
officials informed us that approximately 6 months would be
required to disassemble each line, transport it to a new location,
assemble and install it, and test it. Based on the amount of time
necessary to move one line and the need to move only two lines at
once in order to maintain production capacity, we estimate that it
could take up to 3 years to relocate all current BAU production
equipment. Therefore, the Mint’s proposed 6-month transition
timeframe for contractors does not appear reasonable.

Management Response

The Mint responded that the Phase-In Period will ultimately be that
which is proposed by the successful providers of the supply or
service. The Mint further indicated that its estimate was an
approximation based on the information available prior to obtaining
the feedback and, as such, the agency always had anticipated the
need to make adjustments. With the benefit of this feedback, the
agency agrees with the finding and, indeed, would acknowledge
that the agency’s estimate was, in fact, not sufficient.

OIG Comment

We agree with the Mint’s comment that this feedback is beneficial
to the Mint; however, it appears that the Mint intends to accept
the successful providers’ estimates for the phase-in period rather


MANUFACTURING OPERATIONS: The Mint Needs to Determine         Page 21
Whether Its Long-Delayed A-76 Competition for Coin Blank
Production Should Be Continued (OIG-06-036)
than determining the phase-in period that best supports the Mint’s
mission.

    The Mint Responded to More Than 300 Questions,
    Concerns, and Comments from Interested Parties

The Mint responded to more than 337 questions, concerns, and
comments it received on the September 16, 2005, draft
solicitation, associated technical exhibits and attachments, site
visits, and a pre-bidders conference. The Mint reported that “the
great majority of the questions were answered; however, a very
small number remain works in progress.”

The questions, concerns, and comments ranged from relatively
simple matters to more serious concerns about issues that could
cause further delays or protests of the final selection if not timely
and fully addressed. We found that the items and corresponding
responses fell into the following general categories (some items
had multiple parts, and we counted each part as a separate item):

•   The Circular A-76 process (20)
•   Government contracting and contract performance (26)
•   GFP (105)
•   GFP utilities requirements (32)
•   Personnel needs (5)
•   Raw materials and strip (22)
•   Solicitation (113)
•   Security (6)
•   Transportation (16)

Some of the more significant issues raised involved GFP, the draft
solicitation, and security requirements. Some sample GFP items
were:
    •   It was asked how will it be determined which company
        receives what equipment;
    •   Will there be equipment provided to the companies for the
        destruction of condemned blanks;
    •   What type of equipment is required to treat the waste water
        stream and will it be included in the GFE;
    •   What security equipment is required;


MANUFACTURING OPERATIONS: The Mint Needs to Determine           Page 22
Whether Its Long-Delayed A-76 Competition for Coin Blank
Production Should Be Continued (OIG-06-036)
                           •   Please clarify the justification for the GFP decision in light of
                               the risk of having a significant amount of wasted square
                               footage in the event the contractors win; and
                           •   Will quality test equipment be supplied as part of the GFE?

                       Some examples dealing with the draft solicitation included:
                         •  Changing the proposed closing date for the formal
                            solicitation changed to June 30, 2006 (which represents an
                            approximately 6-month extension of the previously estimated
                            closing date);
                         •  Auditing of cost information should not be necessary in
                            I.3613 because the solicitation is a competitive bid process,
                            not a cost plus arrangement; what is the time-line for the
                            balance of the draft solicitation;
                         •  Since numerous dates were offered during the site visits, is
                            there an estimated time-line for the formal solicitation
                            process? The Mint’s response was that it expected to make
                            a performance decision in the first quarter of calendar year
                            2006; and
                         •  The two existing strip manufacturers, both of whom have
                            expressed an interest to the Mint in competing for the BAU
                            work. The Mint’s September 16, 2005, draft solicitation
                            requires outside vendors, if selected, to acquire metal strip
                            independent of the Mint’s current strip contracts. The MEO
                            would continue to use the Mint’s current strip contracts.
                            Potential vendors other than the two current strip
                            manufactures would therefore have to independently obtain
                            metal strip. The two current strip manufacturers could price
                            other potential bidders out of competition by increasing the
                            cost of the strip so that only those two strip manufacturers
                            could submit competitive bids.

                       Some security items included:
                       • What are the security requirements for:
                            o Physical plant, fences, etc.
                            o Inside the operations, employees, visitors, etc.


13
  The solicitation’s section I.36, Audit and Records, reserves the right for the CO to examine and audit
the Contractor’s documentation to evaluate the cost or pricing data submitted and all costs claimed to
have been incurred or anticipated to be incurred in performing this contract.


                       MANUFACTURING OPERATIONS: The Mint Needs to Determine                     Page 23
                       Whether Its Long-Delayed A-76 Competition for Coin Blank
                       Production Should Be Continued (OIG-06-036)
        o Defined security plan?
•   What are the security requirements for each denomination and
    facilities?
•   Will more information regarding security be included in the final
    solicitation?

Subsequent to the Mint answering the questions, concerns, and
comments from the previous site visits and draft PWS, the Mint
issued another draft PWS in December 2005. Another 139
questions were received from potential bidders. The Mint will not
issue a final solicitation until these additional questions are
answered.

Management Response

The Mint responded that the volume of questions received reflects
both the interest by all concerned and the complexity of this
competition. Management believes that many questions were
excellent and helped the Mint improve the solicitation; others were
duplicative; still others required the Mint to simply clarify a
relatively straightforward issue. The Mint stated that it responded
to every question and concern, posted those responses, and
incorporated them into the body of the draft solicitation package
that was posted.

OIG Comment

We agree with the Mint’s comment; however, we believe that had
the Mint preformed adequate preliminary planning many of the
questions or areas of concern would likely not have occurred and
the time required to be spend answering the same or similar
questions or areas of concern would likely have been reduced.

    ATO Questions and Concerns Need Attention

The ATO (Mint official responsible for the MEO bid to retain the
BAU function in-house) raised the following questions and concerns
on the approved deviation and the September 16, 2005, draft
solicitation:



MANUFACTURING OPERATIONS: The Mint Needs to Determine           Page 24
Whether Its Long-Delayed A-76 Competition for Coin Blank
Production Should Be Continued (OIG-06-036)
•   The deviation provided that the Mint compete two outside
    supply contracts against the MEO as one service contract,
    “which creates many disparities and complications in the areas
    of performance measurement, quality control and production
    flexibility in meeting a supply vs. services contract.” These
    mandates could ultimately create a significant discrepancy
    between the supply contractors’ actual cost submission (which
    could be a higher amount) and the supply contractors’
    comparison costs (which could be significantly lower due to
    adjustments made by the CO to adjust for OMB’s deviation
    approval requirements and the GFP and GFE restrictions
    mandated in the solicitation).
•   The purpose of the standard competition is to ensure that
    public-private competition is used effectively to reduce costs
    associated with the production of coin blanks. Since the supply
    contractors are prohibited from utilizing the government’s
    facilities but are being offered GFE, many of the potential supply
    contractors’ actual costs to produce coin blanks (such as
    transportation of equipment to their facilities and of coin blanks
    back to the Mint — both significant costs) might not be
    considered when their bids are compared to the Mint’s bid
    during the cost comparison.
•   With all of the references to reducing the Mint’s BAU operating
    costs, the ATO expressed concern about the preliminary
    planning to determine the baseline costs. The Mint responded
    that it would update the baseline costs.
•   While the MEO developed its agency tender nearly 2 years ago,
    the Mint’s current schedule only provides outside bidders
    11 weeks to prepare their bids. According to Mint officials’
    responses at the pre-bidders conference, the Mint has no plans
    to extend the timeframe despite concerns raised by the
    vendors. A vendor could appeal a decision based on an
    assertion that the timeframe did not allow sufficient time to
    prepare an accurate bid.
•   Another concern among potential supply contractors could be
    the cost of moving the BAU equipment to contractors’ facilities
    and transporting the finished coin blanks from the contractors’
    facilities to the Mint’s facilities. A potential vendor could appeal
    a decision based on an “un-level playing field” because
    contractors would bear these transportation costs while the
    MEO would not. If such costs are not considered during the

MANUFACTURING OPERATIONS: The Mint Needs to Determine            Page 25
Whether Its Long-Delayed A-76 Competition for Coin Blank
Production Should Be Continued (OIG-06-036)
   competition, however, the result could be exclusion of millions
   of dollars in contractor expenses to produce coin blanks.

Management Response

The Mint responded that it considered all the ATO’s concerns and
incorporated a number of items into the solicitation; however,
many of the questions and concerns raised issues as to the viability
of the OMB-approved deviation. These issues were raised, and the
Mint claimed it analyzed and thoroughly considered in the vetting
and approval process for the deviation. Accordingly, the Mint
believes that, once the deviation was approved, these issues
effectively were subsumed in, or dismissed by, the decision to
grant the deviation. At that point, these concerns became no more
actionable than concerns raised by interested parties during the
public comment period prior to OMB’s promulgation of the revised
Circular A-76.

OIG Comment

We do not agree with the Mint’s comment because we only cited
the ATO’s questions and concerns that were submitted during the
comment period after the Mint had already received the OMB
approved deviation and issued a draft solicitation that included the
deviation.

   Conclusion

The Mint has reported spending nearly $0.5 million on the BAU
standard competition in fiscal years 2004 and 2005 and has
incurred additional costs in fiscal year 2006. To date the Mint has
not received any benefits from the standard competition and does
not have a realistic ending date established. Based on the
significant actions needed by the Mint to address the conditions in
this finding, we have little confidence that the Mint can bring the
BAU A-76 standard competition, as currently designed, to a
successful conclusion within a reasonable period of time. Many of
the problems can be attributed to a lack of sufficient planning, as
required by Mint Draft Directive MD 2A-2, before the standard
competition was announced in October 2003, and planning
continued to be problematic as the Mint shifted its approach to the

MANUFACTURING OPERATIONS: The Mint Needs to Determine          Page 26
Whether Its Long-Delayed A-76 Competition for Coin Blank
Production Should Be Continued (OIG-06-036)
standard competition several times during the ensuing nearly
3 years.

Management Response

The Mint acknowledged to having spent over $.5 million on the
BAU competition, but it disagrees with the report’s conclusion that
it has not received any benefits to date. Aside from a wealth of
knowledge gained on the process by both the MEO and PWS
Teams, the Mint believes it solidified the need to approach this
competition differently, which resulted in the request to OMB for a
deviation to Circular A-76.

OIG Comment

We do not agree with the Mint’s comment because the Mint has
not completed the BAU standard competition, which is required to
be completed within a year of the public announcement. Over
3 years will have transpired between the Mint’s announcement of
the initial BAU standard competition and its plan to complete a
business case analysis by December 31, 2006. If the business case
analysis indicates that the BAU competition should be completed,
we believe it will likely take the Mint another 6 to 12 months to
complete the standard competition or about 4 years after it
embarked on competition. While the Mint may have gained a
wealth of knowledge from this process, we are unsure if that will
be enough to mitigate the fact that it required so long to complete
the standard competition.

Recommendation

We recommend that the Mint Director expeditiously complete a
formal business case analysis to determine whether the activity
should continue to be competed. If the business case analysis
shows that it is still warranted, the Mint should continue with the
standard competition. If the business case analysis shows that it is
not warranted, the Mint should work with the Department to
cancel the BAU standard competition.




MANUFACTURING OPERATIONS: The Mint Needs to Determine          Page 27
Whether Its Long-Delayed A-76 Competition for Coin Blank
Production Should Be Continued (OIG-06-036)
Management Response

The Mint agrees with our recommendation. It responded that it is
developing a business case analysis to determine if the best course
of action is to proceed with the BAU competition or take
alternative action to ensure that the Mint makes or purchases
planchets as efficiently and cost-effectively as possible. Several
alternatives would be analyzed, and the business case analysis will
be forwarded to the Department for feedback. Once a decision is
made regarding how to proceed, the Mint will implement the
results of the decision. If a decision is made to discontinue the
competition, we will work with the Department to cancel it. If
another decision is made, we will work with all necessary parties
to implement the required action in an expeditious manner. Mint’s
management is targeting December 31, 2006, for the completion
of the business case analysis and obtaining a final determination.

OIG Comment

The action proposed by the Mint satisfies the intent of our
recommendation. If possible, the Mint should complete its business
case analysis as quickly as possible and expediently implement the
decision. If this analysis shows that the BAU competition is still
warranted, the Mint should expediently implement the standard
competition after completing appropriate and through planning, and
addresses the deficiencies noted in our report. If this analysis
shows that the BAU competition is not warranted, the Mint should
work with the Department to expediently cancel the BAU standard
competition.




MANUFACTURING OPERATIONS: The Mint Needs to Determine        Page 28
Whether Its Long-Delayed A-76 Competition for Coin Blank
Production Should Be Continued (OIG-06-036)
                              ******

We appreciate the cooperation and courtesies extended to our
staff. If you have any questions, please contact me at
(202) 927-5904.



Thomas E. Byrnes
Director, Procurement Audits




MANUFACTURING OPERATIONS: The Mint Needs to Determine      Page 29
Whether Its Long-Delayed A-76 Competition for Coin Blank
Production Should Be Continued (OIG-06-036)
Appendix 1
Objective, Scope, and Methodology




Objectives

The study objectives were to: (1) determine whether the Mint had
taken corrective actions to address the five recommendations we
made in our October 29, 2004, Interim Audit Report, OIG-05-002,
MANUFACTURING OPERATIONS: Mint’s Standard A-76
Competition Study for the Preparation of Ready-to-Coin Planchets
Is Delayed and Requires Significant Actions to Complete;
(2) determine the current status of the Mint’s BAU standard
competition; and (3) determine whether the BAU costs reported for
fiscal years 2004 and 2005 were accurate and complete. Although
we did not review the Power Industrial Truck Circular A-76
standard competition, some of its fiscal year 2004 costs were
intertwined with BAU standard competition costs and are referred
to, as necessary, in this report.

Scope

We began this phase of our study in November 2004. This report
covers Mint activities related to BAU Circular A-76 activities
through March 2006.

Methodology

As part of our fieldwork, we visited the Mint’s Washington, D.C.,
headquarters; the Mint manufacturing facility in Denver, Colorado;
and Treasury’s Departmental Offices. We interviewed key
personnel involved in the Circular A-76 BAU standard competition
and reviewed contract file and other relevant documentation. We
also interviewed a key member of the staff of the support
contractor hired to help Mint personnel conduct the Circular A-76
competition. Additionally, we reviewed the Mint’s timeline and
progress to assess whether it was meeting the required time limits
for Circular A-76 standard competitions and the deviation approved
by OMB.

We conducted our audit in accordance with generally accepted
government auditing standards.




MANUFACTURING OPERATIONS: The Mint Needs to Determine       Page 30
Whether Its Long-Delayed A-76 Competition for Coin Blank
Production Should Be Continued (OIG-06-036)
                      Appendix 2
                      Specific Agency A-76 Requirements




                      Circular A-76 requirements for federal agencies include the
                      following:

                          •   Inventory all activities performed by government personnel
                              as either commercial or inherently governmental.

                          •   Perform a public-private competition to determine if
                              government personnel should perform a commercial activity.

                          •   Before the public announcement of a standard competition,
                              complete, at a minimum, the following preliminary planning
                              steps:
                              1. Scope—determine the activities and full-time equivalent
                                 position to be competed.
                              2. Grouping–conduct preliminary research to determine the
                                 appropriate grouping of activities as business units.
                              3. Workload Data and Systems—assess the availability of
                                 workload data, work units, quantifiable outputs of
                                 activities or process, agency or industry performance
                                 standards, and other similar data. Establish data
                                 collection systems as necessary.
                              4. Baseline Costs—determine the activity’s baseline costs as
                                 performed by incumbent service provider.
                              5. Type of Competition—determine whether to use a
                                 streamlined14 or standard competition.15
                              6. Schedule—develop preliminary competition and
                                 completion schedules.
                              7. Roles and Responsibilities of Participants—determine roles
                                 and responsibilities of participants in the process and
                                 their availability for the duration of the competition.
                              8. Competition Officials—appoint competition officials.
                              9. Incumbent Service Provider—inform any incumbent
                                 service providers of the date that the public
                                 announcement will be made.
                          •   Apply the FAR, in conjunction with Circular A-76, for
                              streamlined and standard competitions and comply with


14
  A streamlined competition is generally used when the number of full-time equivalents is 65 or fewer.
15
  A standard competition is generally used when the aggregate number of full-time equivalents exceeds
65.

                      MANUFACTURING OPERATIONS: The Mint Needs to Determine                    Page 31
                      Whether Its Long-Delayed A-76 Competition for Coin Blank
                      Production Should Be Continued (OIG-06-036)
Appendix 2
Specific Agency A-76 Requirements




       procurement integrity, ethics, and standards of conduct
       rules.

   •   Designate, in writing, an assistant secretary or equivalent-
       level official with responsibility for implementing Circular
       A-76, hereafter referred to as the CSO. For the BAU
       competitive study, the CSO is the ASM/CFO of Treasury.
       Except as otherwise provided by Circular A-76, the CSO may
       delegate, in writing, specified responsibilities to senior-level
       officials in the agency or agency components.

       One of the CSO’s responsibilities that may not be delegated
       is the requirement to notify OMB if the agency does not
       complete the competitive study within the established 12-
       month timeframe. Another responsibility that the CSO may
       not delegate is to receive prior written OMB approval to
       deviate from Circular A-76 (e.g., time limit extensions,
       procedural deviations, costing variations for a specific
       streamlined or standard competition, inventory process
       deviation). According to Circular A-76, “Agencies shall
       include any OMB approved deviations in the public
       announcement and solicitation for a streamlined or standard
       competition.”

   •   Post on SHARE A-76, which is the Department of Defense
       A-76 knowledge management systems used to share
       knowledge, information, and experience about public-private
       competitions, lessons learned and best practices resulting
       from a competition process.

Key personnel in the OMB A-76 process include the following:

   •   The ATO is an inherently governmental agency official with
       decision-making authority, is responsible for the agency
       tender, leads the MEO, and represents the agency tender
       during source selection.

   •   The CO is an inherently governmental agency official
       participating on the PWS team and is responsible for the
       issuance of the solicitation and the source selection
       evaluation methodology.



MANUFACTURING OPERATIONS: The Mint Needs to Determine           Page 32
Whether Its Long-Delayed A-76 Competition for Coin Blank
Production Should Be Continued (OIG-06-036)
Appendix 2
Specific Agency A-76 Requirements




   •   The CSO is an inherently governmental agency official
       responsible for the implementation of Circular A-76 within
       the agency.

   •   The Human Resource Advisor is an inherently governmental
       agency official and is a human resource expert to assist the
       ATO in developing the agency tender.

   •   The MEO Team is a group of individuals comprising technical
       and functional experts and formed to assist the ATO in
       developing the agency tender.
   •   The PWS Team, led by a team leader, is responsible for
       developing the PWS, determining whether to offer GFP,
       assisting the CO with the solicitation, developing the QASP,
       and implementing the performance decision. The PWS team
       leader makes all final management decisions regarding the
       PWS, GFP, and the QASP.




MANUFACTURING OPERATIONS: The Mint Needs to Determine         Page 33
Whether Its Long-Delayed A-76 Competition for Coin Blank
Production Should Be Continued (OIG-06-036)
Appendix 3
Management Response




MANUFACTURING OPERATIONS: The Mint Needs to Determine      Page 34
Whether Its Long-Delayed A-76 Competition for Coin Blank
Production Should Be Continued (OIG-06-036)
Appendix 3
Management Response




MANUFACTURING OPERATIONS: The Mint Needs to Determine      Page 35
Whether Its Long-Delayed A-76 Competition for Coin Blank
Production Should Be Continued (OIG-06-036)
Appendix 3
Management Response




MANUFACTURING OPERATIONS: The Mint Needs to Determine      Page 36
Whether Its Long-Delayed A-76 Competition for Coin Blank
Production Should Be Continued (OIG-06-036)
Appendix 3
Management Response




MANUFACTURING OPERATIONS: The Mint Needs to Determine      Page 37
Whether Its Long-Delayed A-76 Competition for Coin Blank
Production Should Be Continued (OIG-06-036)
Appendix 4
Major Contributors To This Report




Thomas E. Byrnes, Director, Procurement Audits
John F. Lemen, Audit Manager
Cynthia S. McKelvin, Audit Manager
Ricardo M. Cabarrouy, Auditor-in-Charge
Andras O. Schneider, Auditor
Catherine S. Yi, Referencer




MANUFACTURING OPERATIONS: The Mint Needs to Determine      Page 38
Whether Its Long-Delayed A-76 Competition for Coin Blank
Production Should Be Continued (OIG-06-036)
Appendix 5
Report Distribution




The Department of the Treasury

Assistant Secretary for Management and Chief Financial Officer
Office of Strategic Planning and Performance Management
Office of Accounting and Internal Control

United States Mint

Acting Director

Office of Management and Budget

OIG Budget Examiner




MANUFACTURING OPERATIONS: The Mint Needs to Determine      Page 39
Whether Its Long-Delayed A-76 Competition for Coin Blank
Production Should Be Continued (OIG-06-036)
